                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A07010002                                                                         Page 1 of 1



                 We received an investigation report from a university1 describing plagiarism in a draft
         copy of a student's2 Ph.D. di~sertation.~     The student received some NSF salary support during
         the early part of his graduate ~ a r e e r The
                                                    . ~ report concludes that the student plagiarized text from
         multiple sources into the draft of his dissertation. The report notes that the dissertation was not
         defended before the committee, and there was no plagiarism in the publications or presentations
         of the student. The investigation committee concluded that the student committed plagiarism.
         The University took action to expel the student, who left the university with a M.S. degree.

                 The evidence indicates that the subject did not draft his thesis while being supported by
         NSF funds nor was the plagiarism related to any research he accomplished while being supported
         by NSF funds. Therefore, we conclude there is insufficient evidence to support NSF
         administrative action in this matter. We also conclude that the university's actions effectively
         protect Federal interests. We communicated to the student our concerns about the plagiarism
         found in the draft dissertation and stressed that he properly cite references in any future research
         he undertakes.

                    Accordingly, this case is closed.




          ' Redacted.
             Redacted.
             Redacted.
         4
             Redacted.



NSF OIG Form 2 (1 1/02)
